HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in
Washington State," (A-09-07-00062)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up
Audit of the Medicaid Drug Rebate Program in Washington State," (A-09-07-00062)
April 4, 2008
Complete
Text of Report is available in PDF format (823 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up audit of
Washington States Medicaid drug rebate program, we found that the State had
implemented the recommendations from our prior audit that related to
establishing (1) formal policies and procedures for its drug rebate program and
(2) internal controls for segregation of duties and updating of subsidiary
ledger accounts.  However, the State had not fully implemented the
recommendations related to management oversight over account adjustments and
writeoffs, interest verification, and dispute resolution.  In addition, the
State had established controls over and accountability for collecting rebates on
single-source drugs administered by physicians.  Manufacturers may make their
outpatient drugs eligible for Federal Medicaid funding by entering into a rebate
agreement with the Centers for Medicare & Medicaid Services and paying quarterly
rebates to the States.
We reiterated our recommendations that the State implement
internal controls for management oversight over account adjustments and
writeoffs, accrue interest to verify the accuracy of interest payments received,
and actively work to resolve manufacturer disputes.  The State described the
status of actions taken on our recommendations.